@ BECKER GALLAGHER Supreme Court of the United States

Briefs and Records United States Courts of Appeals

CERTIFICATE OF SERVICE

I, Brett Griffis, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioner in 19-985, Native
Wholesale Supply Company v. People of the State of
California ex rel. Xavier Becerra, Attorney General, was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and e-mail
to the following parties listed below, this 25th day of
June, 2020:

Joshua A. Klein

Counsel of Record
Xavier Becerra
Michael J. Mongan
Karen Leaf
Nicholas M. Wellington
Nora Flum
Kristin A. Liska
California Department of Justice
Office of the Solicitor General
1515 Clay Street, Suite 2000
Oakland, CA 94612-1413
(510) 879-0756
joshua. klein@doj.ca.gov

Counsel for Respondent

Randolph H. Barnhouse

Counsel of Record
Kelli J. Keegan
Barnhouse Keegan Solimon & West LLP
7424 4th Street NW
Los Ranchos de Albuquerque, NM 87107
dbarnhouse@indiancountrylaw.com

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED 8790 Governor's Hill Drive Franklin Square
(800) 890.5001 Suite 102 1300 | Street, NW, Suite 400E
www. beckergallagher.com Cincinnati, Ohio 45249 Washington, DC 20005
All parties required to be served have been served.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 25, 2020.

 

ecker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

  
 
    

Date:

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

 
